No. ____________
IN THE

LEZMOND CHARLES MITCHELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

CUAUHTEMOC ORTEGA
Interim Federal Public Defender
CELESTE BACCHI *
JONATHAN C. AMINOFF
Deputy Federal Public Defenders
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0310
Celeste_Bacchi@fd.org
Attorneys for Petitioner
LEZMOND CHARLES MITCHELL
*Counsel of Record

Petitioner, by his undersigned counsel, asks leave to file the attached Petition
for Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without prepayment of costs and to proceed in forma pauperis. Petitioner was
represented by counsel in the Ninth Circuit under the Criminal Justice Act, 18
U.S.C. ยง 3006A(b).
This motion is brought pursuant to Rule 39.1 of the Rules of the Supreme
Court of the United States.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender
DATED: August 13, 2020

By: /s/ Celeste Bacchi
CELESTE BACCHI*
Deputy Federal Public Defender
Attorneys for Petitioner
LEZMOND CHARLES MITCHELL
*Counsel of Record

1

